U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          OFFICE OF THE SECRETARY

         Stronger Management Controls Will
      Improve Planning and Control of CAMS


       Final Audit Report No. OSE-14129/September 2002




                           PUBLIC
                           RELEASE



                            Office of Systems Evaluation

U.S. Department of Commerce                                               Final Inspection Report OSE-14129
Office of Inspector General                                                                  September 2002

INTRODUCTION

In December 1994, the Department of Commerce awarded a contract to develop CAMS, an
important effort to improve and unify financial management throughout the Department. This
major system1 is one of Commerce’s largest information technology investments: from FY 1995
through 2001 the Department estimates that it spent $150 million on developing, deploying, and
operating CAMS. The Office of Inspector General has identified the system’s successful
implementation as one of the Department’s top 10 management challenges.

CAMS is now the official accounting system for Bureau of the Census and seven of the
Department’s operating units whose accounting functions are handled by the National Institute of
Standards and Technology.2 Information provided to us by the Department indicates that an
additional $92 million will be spent in FY 2002 and FY 2003 to develop and deploy CAMS at
National Oceanic and Atmospheric Administration and NIST and to operate the system.

Beginning in FY 2004, when CAMS is scheduled to be fully deployed, the Department’s
estimates indicate it will cost more than $25 million annually to operate and maintain CAMS.
Once full deployment is attained, Commerce should be in compliance with OMB Circular
A-127, “Financial Management Systems,” which requires federal agencies to have a single,
integrated financial management system with standard information and electronic data exchange
formats.

CAMS Description and Management

Originally, the Department envisioned that CAMS would consist of a Core Financial System and
bureau feeder and other modules, as shown in Figure 1 on the next page. In 1997, the
Department decided to limit the scope of CAMS development to the Core Financial System and
the three core modules that process a high percentage of the Department’s financial transactions
(payroll, purchase card, and small purchases). Core CAMS was then expanded to include four
modules that interface with external transaction processing systems (accounts payable, accounts
receivable, grants, and acquisition), as well as a data warehouse for easy access to management
data and a corporate database into which all operating units submit financial statement data for
consolidated reporting. The Core Financial System employs a commercial off-the-shelf software
package that has been extensively modified to support the following accounting and financial
management functions: general ledger and financial reports, budget execution, accounts payable,
accounts receivable, cost allocation, and workflow management.

The Department’s Deputy Chief Financial Officer is responsible for overall management of the
CAMS program as well as the CAMS Support Center’s budget. The CAMS program manager at
the CSC handles day-to-day management of CAMS development and maintenance, as well as
1
  OMB Circular A-11 defines a major information technology system as one that “requires special management
attention because of its importance to an agency mission; its high development, operating, or maintenance costs; or
its significant role in the administration of agency programs, finances, property, or other resources.”
2
 The units serviced by NIST are the Bureau of Economic Analysis, Economic Development Administration,
Economics and Statistics Administration, Minority Business Development Agency, Office of the Secretary, Office
of Computer Services, and Office of Inspector General.


                                                         2

U.S. Department of Commerce                                                          Final Inspection Report OSE-14129

Office of Inspector General                                                                             September 2002


coordination and support for operating unit implementation. While Census, NOAA, NIST, and
EDA have been primarily responsible for implementing and operating the system, all of the
Department’s operating units that will use CAMS helped develop requirements.

Figure 1. CAMS Program Scope3

                                    Full CAMS: Original ERP Scope
                                      Core CAMS: Current Limited Scope

                                                        NFC Labor Payroll                    ASAP
                                                                                         Grants Interface
                          Small Purchases

                                                                                              Purchase Card

      Inventory                                            General Ledger &                                          Travel
                                                           Financial Reports
                   Accts. Payable
                   Std. Interface
                                            Accounts                        Accounts
      Personal                                                                                                         Sales
                                            Payable                         Receivable
      Property                                                                                                         Order
                                                                                                       Data
                                               Core Financial System                                 Warehouse
                    CSTARS                   Budget                         Cost Allocation
                    Interface               Execution
                                                                                                                     Printing
        Real
      Property                                              Work Flow
                                                                                                    Accounts
                                                            Management
                                                                                                   Receivable
                                                                                                  Std. Interface
                       Hyperion Corp DB                                                                              Budget
                                                                                                                   Formulation




                             Bureau Specific
                                                                In Production                 Future Development
                             Feeder Systems




CSC Management Control Problems

In October 2001, funding scenarios under consideration as a result of Congressional action
would have significantly reduced CSC funding in FY 2002 for CAMS development and
maintenance. The Department believed these funding levels would prevent NOAA from
completing CAMS in FY 2002 and would result in reduced credibility of the Department’s
financial reporting systems. Because we were monitoring CAMS’ progress, the Office of
Inspector General requested information that we believed the Department would have available
and would have needed to effectively determine the impact of the proposed funding level so that
we could conduct our own evaluation. The Department did not provide all of the information we
requested, and based on the information we received, we were not able to make a determination
about the impact of the funding level. This information should have been readily available as it

3
 Source: CAMS User Conference, June 11, 2002, “CAMS Deployment History, Current Implementation and Future
Deployments”.



                                                                3

U.S. Department of Commerce                                                 Final Inspection Report OSE-14129
Office of Inspector General                                                                    September 2002

is necessary to effectively control and manage the resources needed to complete and maintain
CAMS.

There is ample federal law and policy, as well as industry guidance, on the need for establishing
effective management controls over major system programs. The Clinger-Cohen Act, OMB
Circular A-11, and industry best practices4 all recommend the following steps for implementing
such controls:

       •	  Planning—Prepare a baseline plan5 with concrete cost, schedule, and 

                       capability goals for system activities. 

       • 	 Tracking—Collect data on a regular basis about progress toward achieving

                       these goals. 

       • 	 Reporting—Report progress against goals in a timely and independently

                       verifiable fashion. 

       • 	 Evaluating—Identify deviations from the plan and direct the program 

                       accordingly.


Effective program management requires a clear, specific baseline plan and an objective
comparison of quantitative progress data against that plan. Without such an approach,
(1) managers have increased difficulty planning and controlling their programs, recognizing
problems early, and improving program efficiency and economy; (2) senior Department
management and other stakeholders lack the objective information they need to evaluate major
programs, and to thereby ensure that programs are meeting the Department’s goals and achieving
a positive return on investment; and (3) those not involved in the program’s day-to-day
management cannot independently and reliably evaluate the impact of changes to the budget,
schedule, or system capabilities.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our review evaluated management controls at the CSC related to the information that we
believed would normally be available to systematically control and manage the resources needed
to complete and maintain CAMS and that the Department needed to determine the impact of the
proposed funding level. Initially, we asked the CAMS program manager at the CSC to provide
the following basic information:

•      FY 2002 cost estimate for each milestone in the quarterly report.
•      Lower level cost estimate information used to develop the FY 2002 milestone cost estimate.
•      Cost estimate developed for FY 2001 that served as the basis of the FY 2001 budget request.
•      FY 2001 actual obligations and expenditures per milestone specified in the cost estimate.
•      Milestones that were funded in FY 2001 or prior years and are continuing in FY 2002.
•      FY 1999 and FY 2000 baseline cost estimate and actual expenditures by milestone.

4
 See, for example, Putnam, Lawrence H., 1992. Measures for Excellence: Reliable Software On Time, Within
Budget. Upper Saddle River, NJ: Yourdon Press Computing Series.
5
    A baseline plan is an estimate of performance used as reference for comparing and controlling actual performance.



                                                           4

U.S. Department of Commerce                                     Final Inspection Report OSE-14129
Office of Inspector General                                                        September 2002

The CSC subsequently submitted information to us through the Department’s Deputy Chief
Financial Officer. We then met with the CAMS program manager at the CSC and later with the
Deputy Chief Financial Officer. In addition, we reviewed the quarterly reports to determine the
status of the program, and the FY 2001 CAMS Capital Asset Plan submitted to Office of
Management and Budget in accordance with Circular A-11. We concentrated our review on
management controls at the CSC because of the importance of the support center’s services to
CAMS Department-wide. We conducted our fieldwork from October 10, 2001, through January
23, 2002.

We performed our work in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on
Integrity and Efficiency.

FINDINGS AND RECOMMENDATIONS

I.     Plans for CAMS Major System Activities Need to Be Improved

Complete, detailed plans are needed so that CAMS managers and other interested stakeholders
have a blueprint for the completion and maintenance of CAMS. Indeed, the inherent difficulties
often associated with developing major systems of this magnitude, coupled with CAMS’ specific
historical problems and the array of interested stakeholders, require a complete, detailed plan.
Among other things, this plan should include a baseline for measuring program progress.
Moreover, to be a useful management tool, the plan for a major system such as CAMS should
specify estimated costs for all major system activities for the fiscal year, including the cost of
system development, enhancement, operation, and maintenance activities. The plan should be
derived from the program’s full life-cycle cost, schedule, and capability goals. The cost of major
system activities should be substantiated by an analysis of the work required to meet schedule
and capability goals. At the start of each fiscal year and at other appropriate times, the plan
should be updated to reflect actual and probable funding and program changes.

During our fieldwork, the CSC could not readily provide a detailed plan for FY 2002 that
specified the cost of all major system activities to support its funding request. For fiscal years
1999 through 2003, funding requests have been approximately $15 million annually. The plan
the CSC initially provided for our review at the beginning of FY 2002 covered only part of its
$15 million funding level, as detailed below. We followed up with a request for a plan that
accounted for the total funding level, but did not receive one before we issued our draft report
four months later. We were informed that by the beginning of FY 2002, the CSC knew
informally how it would spend its funds on major system activities, but were never provided a
complete, documented plan.

Specifically, we initially requested cost estimates for the milestones planned for FY 2002 that
were listed in the CAMS Quarterly Report. We expected that the report to Congress was derived
from and consistent with the management information used internally by the CSC and that the
report included all of the CSC’s major system activities and accounted for the total budget.
However, CSC officials were only able to provide cost estimates for the quarterly report
activities that accounted for about $3.7 million out of approximately $8 million of funding



                                                 5

U.S. Department of Commerce                                           Final Inspection Report OSE-14129
Office of Inspector General                                                              September 2002

intended for contracted services and did not include the amount for fixed costs, such as the cost
of government personnel supporting the activities. We subsequently asked for a plan showing
cost estimates that covered all of the support center’s FY 2002 funding, but were advised that a
complete plan was unavailable because system activities were being reprioritized.

Department officials told us that they intended to use a contractor’s study of future CAMS
operations and maintenance costs to support FY 2004 planning.6 Subsequently, we met with
CSC officials in July after our draft report was issued and obtained a prioritized list of system
activities and costs that demonstrates that the CSC has initiated actions that are consistent with
our recommendations.

Recommendations

The Chief Financial Officer and Assistant Secretary for Administration should ensure that the
following actions are taken:

1. 	 A plan is prepared and maintained for the CSC that more thoroughly supports the CAMS
     budget requests. This plan should
        a. 	 specify full costs for all major system developments and enhancements as well as
             operations and maintenance activities; and
        b. 	 be substantiated by an analysis of the work required to meet the schedule and
             capability goals.

2. 	 The above-referenced plan is updated by the start of the fiscal year to incorporate the most
     current information about program funding, system activities, and their costs.

Synopsis of Department Response

In response to our draft report, the Department advised that the CAMS budget planning process
is based on a capital asset planning model developed in FY 1999 that is updated annually for the
budget request. It indicated that the model is updated for each budget request with actual costs
from prior fiscal years and updated budget estimates for future years.

The Department stated that at the beginning of each fiscal year detailed plans are put into place
for all major systems activities that are continuations from the prior year or that are new projects
for which complete functional requirements have been documented and accepted. However, the
Department noted that some activities do not have detailed requirements at the beginning of the
fiscal year and can only be estimated as a “level of effort” requirement based on prior year
experiences. Accordingly, specific functional requirements and detailed project and budget
plans are produced for these activities as the budget year progresses.

The response further indicated that the costs provided to us were the estimates for the activities
related to the milestones in the quarterly report and were not intended to account for the entire
CSC budget. According to the Departmental response, the milestones are intended to highlight

6
 The Department contracted with Booz-Allen-Hamilton for two studies: Costs and Environment Associated with the
Useful Life-Cycle of Post-2003 CAMS and CAMS Business Case Analysis: Year 2004 and Beyond.


                                                      6

U.S. Department of Commerce                                    Final Inspection Report OSE-14129
Office of Inspector General                                                       September 2002

the activities critical to successful implementation of CAMS and include only the estimated
contractor costs that are variable, not fixed costs such as the CSC infrastructure or staff costs.
The Department indicated, however, that the budget planning process would improve as CAMS
moves into the operations and maintenance phase and requirements stabilize.

OIG Comments

During our fieldwork, CSC officials said that the data used by the budget-planning model is
outdated and that the report generated by the model (not the model itself) is adjusted on the basis
of experience. We believe an up-to-date model and data should be used for CAMS budgeting
and understand that the previously referenced contractor’s work is intended to help accomplish
this goal. From the documents we received during our fieldwork, we concluded that a detailed
plan did not exist for effectively controlling and managing resources.

When we subsequently met with CSC officials in July, after our draft report was issued, we
received the following pertinent information:

•	  A prioritized list of CSC software initiatives and their estimated costs for FY 2003 and
    beyond.
• 	 A description of software initiatives for the remainder of FY 2002 and for FY 2003.
• 	 Twelve project plans showing tasks and their planned and actual schedules.

Although we have not analyzed the information listed above, this documentation indicates that
development of the types of crucial planning and control information we had initially requested,
and that will enhance Departmental managers and other stakeholders management and oversight
of CAMS, has been initiated.

II.    The Total Actual Costs of CAMS Major System Activities Need to Be Tracked

The Clinger-Cohen Act requires executive agencies to measure program progress “in terms of
cost, capability of the system to meet specified requirements, timeliness, and quality.” However,
until recently, the CSC did not systematically track the total actual cost of major system
activities, which is essential for effectively evaluating program progress.

As noted earlier, we requested actual cost information for FY 1999 through FY 2001 milestones.
The amounts that the CSC identified in response to this request represented the actual cost for
about one-third of the FY 2001 milestones that we identified and accounted for about 22 percent
of CSC’s estimated costs for system contracts. Further, the costs the CSC identified were not the
total actual costs for the milestones because they did not include the cost of government staff
working on the activity. The CSC did not provide costs for milestones from prior years, but
indicated that it could reconstruct them.

Although the CSC did not track the total actual cost of system activities, we found that it did
track the actual costs of contractor tasks. However, these tasks were typically broad and did not
correspond to specific system activities. For example, the FY 2001 system activity to analyze
the procurement module’s interface to CAMS was carried out under a broad task order that
provided high-level system analysis services as needed. Because this analysis activity was not


                                                 7

U.S. Department of Commerce                                    Final Inspection Report OSE-14129
Office of Inspector General                                                       September 2002

specifically identified in the contract, the CSC could not track the cost of developing the
interface. Such an approach is inadequate to support tracking overall CAMS program progress.
Department officials have recognized that a better approach is needed to track actual costs, and at
the exit conference held February 27, 2002, told us that the CSC began tracking the total actual
cost of major system activities beginning in FY 2002.

Recommendation

The Chief Financial Officer and Assistant Secretary for Administration should take the necessary
actions to ensure that the full cost of major system activities for CAMS is tracked.

Synopsis of Department Response

The Department agreed that, prior to FY 2002, it did not track the full cost of major system
activities. It noted that although program officials did not track actual or full costs for each
system project at the CSC as it progressed, they were able to construct actual costs for FY 2001
by using the project plans and accumulating contractor and government staff costs based on the
schedule of activities for each project. The response further noted that this method was used to
derive costs for past projects when estimating future costs for similar projects.

The Department’s response stated that beginning in FY 2002, in part to meet the requirement of
Statement of Federal Financial Accounting Standards (SFFAS) #10 that the cost of software
developed for internal use be reported, the CSC instituted new procedures to track full costs,
including new time and effort reporting to capture the cost of government staff by the major
system or project supported and the aligning of contractor task orders with system activities. An
algorithm is used to allocate indirect costs. These changes allow the CSC to track costs and
progress against the baseline project plans on a monthly basis.

OIG Comments

When we met with CSC officials in July, after our draft report was issued, we received the
following pertinent documents:

•	  SFFAS #10 summary of government and contractor costs reports for FY 2001 and three
    quarters of FY 2002.
• 	 A contractor’s report on staff charges for work performed on tasks in FY 2002.
• 	 A time and attendance sheet showing a government employee’s charges to various project
    numbers.

Although we have not analyzed the information subsequently provided, the documents indicate
that in FY 2002 the CSC has taken steps to align contractor tasks and government staff hours
with system activities.




                                                8

U.S. Department of Commerce                                    Final Inspection Report OSE-14129
Office of Inspector General                                                       September 2002

III.   CAMS Reports Need to Provide Greater Visibility into the Program

CAMS’ development and its subsequent successful operation have long been of interest to its
many stakeholders. Commerce prepares two types of reports on CAMS’ spending and progress
for its stakeholders: (1) The annual CAMS Capital Asset Plan, submitted to OMB, is supposed to
describe and justify the program; detail its cost, schedule, and capability goals; and report
progress in meeting goals. (2) CAMS Quarterly Reports to Congress are supposed show progress
against the Department’s established baseline schedule and cost estimates for major systems
activities.

We examined the reports issued in FY 2001 and found that they needed improvement. Neither of
the reports provided adequate visibility into the program’s baseline plans or into the impact of
program changes. The Department could improve both reports so that they provide the
information needed to better evaluate CAMS program progress.

OMB Circular A-11 requires that agencies submit a capital asset plan annually to OMB in
support of the budget request that describes and justifies each major information technology
system; details its cost, schedule, and capability goals; and reports progress in meeting program
goals. However, the CAMS Capital Asset Plan for the FY 2002 budget request did not fulfill
these requirements for two reasons: (1) The plan’s cost estimates cannot be verified because they
were based on a computer model that used out-of-date data and may be inaccurate. (2) The plan
did not provide detailed schedule and system capability goals or describe the actual progress
achieved. More detail was added to the capital asset plan for the FY 2003 budget request by
incorporating the CAMS Quarterly Report milestones.

The conference report accompanying Commerce’s FY 2001 appropriation directed the
Department to submit an initial CAMS Quarterly Report for the first quarter of FY 2001,
followed by quarterly progress reports. The initial report was to establish a baseline plan
containing schedule and cost estimates for major system activities. The quarterly reports were to
show progress against the baseline. However, these reports did not explain how deviations from
the baseline plan specified in the first quarterly report would impact overall program goals.

We found that significant deviations from the baseline occurred in FY 2001. In the third
quarterly report, for example, six new major system activities were added, but without an
explanation as to why they were added or what their impact would be. In the fourth quarterly
report, four activities were delayed. Although the two reports stated the length of these delays
(i.e., the new completion date), they did not describe the delays’ potential effect on overall
program funding and delivery of system capability.

At the exit conference, Department officials agreed that the CAMS Capital Asset Plan needed to
be improved and told us that they intended to update the plan based, in part, on the contractor’s
review of future CAMS operations and maintenance costs. They also agreed to describe the
impact of program deviations in future quarterly reports.




                                                9

U.S. Department of Commerce                                    Final Inspection Report OSE-14129
Office of Inspector General                                                       September 2002

Recommendations

The Chief Financial Officer and Assistant Secretary for Administration should ensure that the
following actions occur:

1. The CAMS Capital Asset Plan is updated to
      a. 	 use cost estimates that are based on the work to be performed and are supported by an
           appropriate cost-estimating methodology; and
      b. 	 include a comparison of actual progress achieved with detailed schedule and system
           capability goals.

2. The CAMS Quarterly Reports describe the impact of deviations from the baseline on future
   costs and delivery schedules.

Synopsis of Department Response

In responding to our draft report, the Department indicated that the CAMS Capital Asset Plan is
updated each fiscal year on the basis of prior-year actual costs and the most current estimates of
future costs, and that the model was overhauled in early 2001 to make it more robust and easier
to use. It indicated, as we previously noted, that the CAMS Quarterly Report includes critical
milestones only after the Department—in working with the bureaus—has identified the level of
effort needed to complete the milestones and is confident that the completion dates can be met.
Finally, the Department noted that it frequently requests feedback regarding the reports from
OMB and Congress, and has received no feedback that would indicate that they are dissatisfied
with the quarterly reports.

OIG Comments

We reviewed the capital asset plan and quarterly reports, expecting that they would, in fact,
provide insight into the status of CAMS. However, we found nothing that altered the issues
discussed in our finding and recommendations. Further, although users of the quarterly report
may not have expressed concerns about it, the Department, for its own purposes, should benefit
from providing reports that are consistent with the information it uses to manage the program
and be assured that stakeholders can accurately gauge progress and make appropriate resource
decisions.

We met with CSC representatives in July, after our draft report was issued, and obtained the
quarterly report for the second quarter of FY 2002. We found that it does demonstrate some
changes consistent with our recommendation. Specifically, the report describes the impact of
delays on schedule and users, although it does not address their affect on program costs. We also
were given a draft FY 2004 CAMS Capital Asset Plan, which included revised fiscal year costs
and estimated future costs. A detailed schedule, capability goals, and actual progress
information were not included in the material we received.




                                                10

U.S. Department of Commerce                                             Final Inspection Report OSE-14129
Office of Inspector General                                                                September 2002

IV.       A Performance-Based Management System Should Be Implemented

OMB Circular A-11 requires agencies to use performance-based management systems to obtain
timely, objective information about a program’s progress and thereby ensure that it is not
deviating excessively from its goals. If a program is not achieving 90 percent of its goals, the
head of the agency is required to take corrective action. However, the CSC does not use a
performance-based management system to oversee CAMS. The program needs such a system to
support day-to-day program management and comply with OMB Circular A-11.

A performance-based management system better enables managers to establish, monitor,
measure, and report planned and actual program costs, schedules, and capabilities in an
integrated fashion. It is a tool for providing objective information about program progress that
can be used for planning and controlling programs.

In December 1997, when the current CAMS approach was being finalized, the CAMS
Performance Management Plan stated that the program would produce an earned value report.7
The February 2001 CAMS Capital Asset Plan stated that to ensure the program proceeded in a
controlled manner, a performance-based management system would be employed to track
activities and progress. However, at the time of our fieldwork, the CSC did not have a system
that tracked cost, schedule, and capabilities in an integrated way.

At the exit conference, Department officials agreed that a performance-based management
system is needed. They told us that the CSC is learning to use such a system and expects to
implement it for CAMS by FY 2003.

Recommendation

The Chief Financial Officer and Assistant Secretary for Administration should take the necessary
actions to ensure that a performance-based management system is implemented for CAMS as
soon as possible.

Synopsis of Department Response

The Department’s response indicated that although the CSC lacks an integrated software tool
that can collect and produce earned value analysis, it does collect and monitor schedule, cost, and
progress data. The response noted that a spreadsheet model of earned value has now been
piloted and that the CSC plans to implement an integrated software system that supports full
performance-based management techniques.




7
    Earned value is a method of performance-based program management.



                                                      11

